OIG Audit Report GR-90-08-004

Office of Justice Programs Serious and Violent Offender Reentry Initiative Grant Awarded to the City of Oakland, California

Audit Report GR-90-08-004


September 2008
Office of the Inspector General


Executive Summary


The Office of the Inspector General (OIG), Audit Division, has completed an audit of the Serious and Violent Offender Reentry Initiative grant (2002-RE-CX-0055), known as Project Choice, awarded by the United States Department of Justice, Office of Justice Programs (OJP) to the City of Oakland, California (Oakland). The purpose of OJP’s Serious and Violent Offender Reentry Initiative grant program was to provide funding to state and local governments to develop and implement an institutional and community corrections-based offender reentry program to reduce recidivism, increase public safety, and successfully reintegrate serious and violent offenders back into the community. As of September 20, 2004, OJP had awarded Oakland a total of $1,052,000 for this grant.
The objective of the audit was to determine whether cost reimbursements claimed under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant. We tested Oakland’s compliance with essential grant conditions, including budget management and control, grant expenditures, drawdowns, program income, subgrantees, local match requirements, grant reporting, and program objectives.
 Based on our audit work, we found Oakland to be in material non-compliance with the grants requirements. Specifically, Oakland did not exercise adequate programmatic oversight of Project Choice to ensure that services had been rendered to eligible program participants, that contractors maintained accurate and complete records of program participants and their outcomes, and that records were retained for audit purposes.   We found that the City of Oakland did not maintain a list of program participants nor did it ensure that its contractors, to whom it delegated the responsibility of carrying out significant elements of the program, maintained complete and accurate lists and records of program participants.   Also, we found instances where Project Choice participant case files were erroneously shredded.   Because of these deficiencies, we questioned a total of $1,052,000 resulting from inadequate programmatic oversight.
We discuss these matters in the Findings and Recommendations Section of this report. We discussed the results of our audit with Oakland officials and have included their comments in the report, as applicable. In addition, we requested written responses to our draft report from Oakland and OJP, which are included in this report as appendices III and IV, respectively. Our audit objective, scope, and methodology appear in Appendix  II of this report.







Return to OIG Home Page